Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 MANDATORY MANAGED CARE

      Early Lessons Learned by
   Medicaid Mental Health Programs




                   JUNE GIBBS BROWN
                   Inspector General

                      JANUARY 2000
                      OEI-04-97-00343
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and Human
Services programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections, sanctions, and
fraud alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers, Regional
Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

Dwayne Grant, Lead Analyst                           Alan Levine, Program Specialist

Betty Apt                                            Barbara Tedesco

Josiah Townsel                                       Brian Ritchie

Janet Miller                                         Joan Richardson



To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports are

also available on the World Wide Web at our home page address:


                               http://www.dhhs.gov/progorg/oei
                              TABLE OF CONTENTS
                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

      Starting Managed Care Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Transitioning From Fee For Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Providing Access to Care . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES

    A: Summary of First Year Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


                     HCFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


                     SAMHSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                        EXECUTIVE SUMMARY

PURPOSE
        To describe early lessons learned by State Medicaid programs converting mental health services
        to persons with serious mental illnesses from a fee for service system of care to mandatory
        managed care.

BACKGROUND

        States are increasingly converting their Medicaid programs from fee for service models to
        managed care models. Nearly every State has implemented, or is planning to implement,
        mandatory managed care for Medicaid beneficiaries who require mental health services.

        We surveyed seven State Medicaid programs that were among the first to mandate managed
        care mental health services for persons with serious mental illnesses. In this report, we highlight
        early lessons learned by the first five States that converted to mandatory managed care. We
        also included two States that recently converted to mandatory managed care. We included
        these two States because the Health Care Finance Administration identified them as having
        particularly innovative programs.

        Most of the practices we highlight were considered to be successful by State Medicaid staff in
        more than four of the seven States we studied. Those early States laid the ground work for
        other States that followed. Even within the group of seven, the first States who converted in
        1991-1992 were models for those that followed.

EARLY LESSONS LEARNED

        The implementation successes and problems reported by the seven States we studied can be
        helpful for other States that are considering mandating managed care for mental health, or any
        other speciality services. We did not determine the effectiveness of the lessons learned reported
        by the States. We believe, however, that such information can be helpful to States starting
        mandatory managed care programs, transitioning from fee for service, and providing access to
        out-patient services.

        Starting Managed Care Programs

                   <      Separate mental health services from other health services

                   <      Phase In conversion

                   <      Exclude Drug formulary from managed care system

                   <      Use existing public health system

                   <      Keep contract language specific



Mandatory Managed Care - Lessons Learned            1                                   OEI-04-97-00343
        Transitioning From Fee For Service

                   <      Provide community education early and often
                   <      Involve beneficiaries in conversion process
                   <      Involve beneficiaries and family in treatment planning
                   <      Ensure timely payment of providers

        Providing Access to Care

                   <      Eliminate co-payments

                   <      Assign health care coordinators

                   <      Allow any accredited provider to participate

                   <      Encourage liberal prior authorization policies

                   <      Initiate outreach programs

                   <      Develop rural services

                   <      Initially share financial risk to encourage development of services


CONCLUSION

        States have become more efficient in their managed care mental health programs. Each State
        learns from the successes and mistakes of its predecessors. The continued sharing of lessons
        learned could greatly benefit other States that are considering converting to mandatory managed
        care, and those preparing for contract renewal.

AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA stated that the report provided good, first-hand information on changes to Medicaid mental
health services resulting from mandatory managed care enrollment during the first few years.

SAMHSA questioned whether the lessons learned should be referred to as “findings.” They said the
word “findings” may cause the reported experiences of the seven States to be construed as scientific
data. We agree that our results are not “scientific” in the sense commonly used by SAMHSA in its grant
programs. On the other hand, we did gather the early experience of States in a systematic way and
presented a broad spectrum of assessments of the relevance and significance of these early efforts. For
this reason, we believe the use of the work “findings” is appropriate. However, because of SAMHSA’s
concerns, we have renamed this section “Early Lessons Learned” in order to reduce any
misunderstanding within the research community about the nature of our findings. We also included in
this report, a section on advantages and limitations of our methodology in order to emphasize that our
results are based on a case study approach.

SAMHSA also expressed concern that none of our selected States had integrated programs and that we


Mandatory Managed Care - Lessons Learned            2                                     OEI-04-97-00343
therefore could not present a balanced comparison of integrated and carved out mental health systems of
care. However, our purpose was to describe the lessons learned by States that were the first to
implement mandatory managed care. None of these States utilized an integrated system of care.
Therefore, we could not compare these different systems

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We also made several technical changes suggested by SAMHSA.

The full text of HCFA and SAMHSA comments are in Appendix B.




Mandatory Managed Care - Lessons Learned         3                                     OEI-04-97-00343
                                  INTRODUCTION

PURPOSE

        To describe early lessons learned by State Medicaid programs converting delivery of mental
        health services to persons with serious mental illnesses from a fee for service system of care to
        mandatory managed care.

BACKGROUND

        States are increasingly converting their Medicaid programs from traditional fee for service
        models to managed care models. As of June 1998, over 16.5 million Medicaid beneficiaries
        were participating in some type of managed care program. This represents over 53 percent of
        the Medicaid population1.

        Nearly every State has implemented, or is planning to implement, mandatory managed care for
        Medicaid beneficiaries who require mental health services. As of July 1998, 36 States have
        implemented mandatory mental health managed care programs.2 The first seven States all
        implemented mandatory managed care between 1991 and 1995. They laid the ground work for
        other States that followed. Within the group of seven, the earlier ones that converted in 1991-
        1992 were models for those that followed.

Mental Illnesses

        Adults, age 18 and over, who currently or any time in the past year have had a diagnosable 

        mental, behavioral, or emotional disorder that results in functional impairment which substantially

        interferes with or limits one or more major live activity is defined as seriously mentally ill.3 The

        annual prevalence of serious mental illness in the United States is estimated to be about 5

        percent, or 10 million people.4 Some of the more commonly recognized disabling types of

        serious mental illnesses include schizophrenia, bipolar disorder, major depression, obsessive-

        compulsive disorder, and panic disorder.


        Children, up to age 18, with the same diagnosis, are classified as seriously emotionally disturbed. 

        An estimated 1 in 10 children are reported to have a serious emotional disturbance at any given

        time.5 In fact, the estimated prevalence rate of serious emotional disturbances for children -

        about 9 percent - is higher than the prevalence rate of serious mental illnesses for adults.6


        In addition to the disorders that effect adults, children with a serious emotional disturbance may

        also be commonly diagnosed with attention deficit disorder, autism, pervasive development

        disorder, or Tourette's syndrome.





Mandatory Managed Care - Lessons Learned          4                                     OEI-04-97-00343
METHODOLOGY

        We reviewed the mental health managed care programs for seven States . They were Arizona,
        Massachusetts, North Carolina7, Utah, Washington, Iowa, and Colorado. We highlight
        successful practices of the first five States with mandatory managed care programs for persons
        with serious mental illnesses for at least 3 years as of April 1997.8 Likewise, we included
        successful practices of two States, Iowa and Colorado that the Health Care Finance
        Administration identified as being particularly innovative programs.9 Most of the practices we
        highlighted were considered to be successful by State Medicaid staff in more than half of the
        seven States we studied. For comparison purposes, we provided a general description of each
        selected State program in appendix A.

        To identified successful practices, we interviewed Medicaid staff in each selected State. We
        also interviewed selected managed care organization officials, mental health care providers, and
        mental health stakeholders. We asked them to describe the positive and negative experiences of
        managed care implementation.

Advantages and General Limitations

        We used a case study approach in analyzing the early lessons learned by Medicaid mental health
        programs. The advantage of this approach was that it allowed us to gain first-hand experiences
        from State officials, managed care organization representatives, mental health providers, and
        stakeholders. Our methods have general limitations in that the States or sites selected may not
        be typical, and we did not verify the testimonial information they provided to us. The information
        is also limited, because it reflects operations that occurred over a 2 to 3-year time period starting
        with each States first year contract. We are aware that State Medicaid managed care systems
        have continued to evolve with each new contract and waiver renewal, and that the structure of
        our surveyed States today may be quite different from their initial managed care contracts.

        Despite the general limitations of our inspection, we believe this report provides good, first-hand
        information on the early lessons learned by Medicaid mental health programs implementing
        mandatory managed care programs. This type of information could be most useful when first
        implementing a new system of care.

Definitions

        Seriously Mentally Ill - For purposes of this report, the serious mentally ill population refers to
        both adults and children, unless otherwise stipulated.

        Stakeholders - For the purpose of this report, stakeholders include persons with a serious
        mental illness, family members of persons with a serious mental illness, and State and national
        mental health organizations representing persons with serious mental illnesses.




Mandatory Managed Care - Lessons Learned           5                                     OEI-04-97-00343
Companion Reports

        We issued a companion report titled Mandatory Managed Care - Changes in Medicaid Mental
        Health Services (OEI-04-97-00340). That report provides an early look at the changes that
        mandatory managed care had on State Medicaid mental health services for persons with serious
        mental illnesses.

        We also observed that children often face different challenges accessing mental health care than
        do adults. These differences are presented in a companion report titled Mandatory Managed
        Care - Children’s Access to Medicaid Mental Health Care (OEI-04-97-00344).
                               _____     ____ ____         _____

        We did our field work between May 1997 and July 1997. While conditions regarding mental
        health services in managed care settings may have changed since then, our report reflects
        conditions and patterns of care in the first few years of converting fee for service programs to
        managed care. Wherever possible we have updated our background information. We
        conducted the inspection in accordance with Quality Standards for Inspections issued by the
        President’s Council on Integrity and Efficiency.




Mandatory Managed Care - Lessons Learned          6                                     OEI-04-97-00343
                       Early Lessons Learned
Within broad Federal guidelines, State Medicaid programs determine who is eligible for Medicaid
benefits, as well as what services are provided. Given the ability of each State to tailor their programs to
best fit their individual needs, it is understandable that no two State Medicaid programs are exactly alike.

The overall uniqueness was evident in all seven State Medicaid mandatory mental health managed care
programs we studied. However, we identified several common implementation characteristics that
Medicaid staff in most of the seven States said were particularly successful. According to Medicaid
staff, the strategies highlighted below were used when starting a managed care program, transitioning
from fee for service, and providing access to care for persons with serious mental illnesses.

Starting Managed Care Programs

       Separate Mental Health All seven States separated or “carved out” their mental health
       Services From Other    services from their general health services. By carving out mental
       Health Services	       health services, States helped ensure provision of care by
                              specialized managed care organizations that are experienced with
                              the challenges of treating serious mentally ill populations. The
                              seven States said that general health care managed care
                              organizations were not typically structured to handle the
                              complex, long-term challenges presented by Medicaid serious
                              mentally ill populations.


       Phase In Conversion	                Four of the seven States surveyed chose to first test mandatory
                                           managed care in a portion of the State. These States reported
                                           fewer implementation problems than did States that immediately
                                           implemented State-wide programs without testing. States that
                                           implemented State-wide experienced delays in converting and
                                           enrolling beneficiaries, lack of up-to-date eligibility information,
                                           cumbersome prior authorization procedures, and delays in
                                           paying providers. Smaller test sites allowed States to resolve
                                           such service and logistical problems prior to State-wide
                                           implementation.




Mandatory Managed Care - Lessons Learned                7                                      OEI-04-97-00343
       Exclude Drug                        States did not include the cost for prescription drugs in their
       Formulary from                      managed care contract. This was done primarily because States
       Managed Care System	                were unsure of how to accurately determine the cost for this
                                           benefit. Without reliable cost information, States said they could
                                           not correctly set the capitation rate for this benefit. States
                                           believed that if they did not set the capitation rate for prescription
                                           drugs at the correct level, managed care organizations would
                                           have an incentive to restrict access. Therefore, excluding
                                           prescription drugs from managed care contracts would protect
                                           beneficiaries. Beneficiaries continued to receive their
                                           prescription drugs through the traditional fee for service system.


       Use Existing Public                 Most States contracted with their established public health
       Health System	                      providers, typically Community Mental Health Centers
                                           (CMHCs), who formed non-profit managed care organizations
                                           to bid on contracts. States believed that contracting with existing
                                           CMHCs would allow them to keep the existing public mental
                                           health system in place, allow for a more seamless conversion,
                                           and minimize the impact of change on beneficiaries. They also
                                           generally thought that existing CMHCs had more experience
                                           providing services to the Medicaid beneficiaries with serious
                                           mental illnesses.


       Keep Contract                       In hindsight, most States acknowledged that their first managed
       Language Specific	                  care contracts were weak and not as specific as they should
                                           have been. States learned from their experience and
                                           strengthened contract language in subsequent contract renewals.
                                           It is important that States not be naive about contracts. If
                                           something is not specified in the contract, it will not happen
                                           unless States are willing to pay more for it.




Mandatory Managed Care - Lessons Learned                8                                       OEI-04-97-00343
Transitioning from Fee For Service

       Provide Community                   States recommended educating and advising beneficiaries of
       Education Early and                 pending system changes as early, and as often, as possible.
       Often	                              These efforts should start during initial planning, and continue
                                           well after managed care implementation. States found such early
                                           outreach efforts well worth the effort and cost.



       Involve Beneficiaries in Most States involved beneficiaries and family members in
       Conversion Process 	     planning and developing their mental health managed care
                                programs. Beneficiaries who were involved early in the
                                contracting process felt the most in control and were the most
                                receptive to the managed care conversion.



       Involve Beneficiaries               Family members and beneficiaries often felt that they were not
       and Family in                       always respected or looked upon as a resource when providers
       Treatment Planning	                 and managed care organizations developed treatment plans.
                                           These groups wanted more involvement in treatment plans.
                                           Managed care organizations that solicited and incorporated input
                                           from family members and beneficiaries on treatment plans
                                           received more favorable comments regarding their managed care
                                           programs.


       Ensure Timely                       During the initial stages of conversion to managed care,
       Payment of Providers	               providers often waited long periods of time without receiving
                                           payment for mental health services rendered. This problem was
                                           more prevalent in those States that implemented mandatory
                                           managed care State-wide. Payment delays caused a lot of
                                           animosity among providers. It creating a financial hardship for
                                           some providers, particularly the traditional public providers who
                                           did not have capital reserves to withstand long payment delays.
                                           As an inducement to encourage timely payment of providers, one
                                           State included financial incentives and penalty clauses in the
                                           managed care organization contract.




Mandatory Managed Care - Lessons Learned               9                                    OEI-04-97-00343
Providing Access to Care

       Eliminate                           All States that had a fee for service co-payment requirement
       Co-payments	                        eliminated it when they converted to managed care. States
                                           reported co-payments are typically used to discourage, or limit,
                                           use of services, and may have served as a barrier to out-patient
                                           treatment for Medicaid beneficiaries under the prior fee for
                                           service system. States believed discouraging use of services by
                                           charging a co-payment is inconsistent with the goals of public
                                           health programs, which is to provide services to those in need.
                                           While the eliminated co-payment was typically only a few dollars
                                           per visit, any fee can be a strong barrier to care for Medicaid
                                           beneficiaries.
       Assign Health Care                  To improve access to services and coordination of care, some
       Coordinators	                       States created health care coordinator positions. Each new
                                           Medicaid beneficiary would be assigned to a health care
                                           coordinator. Mental health stakeholders viewed health care
                                           coordinators as a proponent for services and care, rather than a
                                           gatekeeper, or someone who limits care. They not only assisted
                                           with obtaining mental health services, but they helped coordinate
                                           general health services, which is often a challenge for
                                           beneficiaries in a carved out health care system.


       Allow Any Accredited                Two States used “any accredited provider” language in their
       Provider to Participate	            managed care contracts. This meant that any provider, that met
                                           the managed care organization’s accreditation requirements and
                                           accepted the managed care organization’s reimbursement rates,
                                           was eligible to participate in the managed care system. By
                                           requiring that managed care organizations not restrict provider
                                           participation, States were able to expand beneficiary choice of
                                           providers, as well as increase system capacity by expanding the
                                           managed care organization’s provider base.




Mandatory Managed Care - Lessons Learned               10                                   OEI-04-97-00343
       Encourage Liberal                   States believed that pre-authorizing a set number of initial out-
       Prior Authorization                 patient services reduced administrative bureaucracy and costs,
       Policy                              and improved timeliness of services. Providers were also more
                                           satisfied with managed care when they were given this flexibility.
                                           Requiring each individual service to be approved in advance
                                           proved to be cumbersome and labor intensive for both providers
                                           and managed care organizations.


       Initiate Outreach                   One State said they increased the number of beneficiaries
       Programs	                           accessing mental health services by requiring beneficiary out
                                           reach programs. The State required managed care organizations
                                           to contact new Medicaid enrollees and to periodically send a
                                           newsletter or program information to all enrollees. This initiative
                                           was highly touted by the State as a reason they were able to
                                           increase the percentage of Medicaid enrollees accessing mental
                                           health services


       Develop Rural                       Several States encouraged the development of rural programs by
       Services	                           providing a higher capitated rate for these areas. Rural areas
                                           present special problems because an adequate number of
                                           providers and services are often not close by. Populations are
                                           often not large enough to spread the risk to make capitation
                                           feasible.


       Initially Share Financial           To ensure that new managed care organizations were ready to
       Risk to Encourage                   provide needed out-patient services, several States initially
       Development of                      shared the financial risk for services with managed care
       Services                            organizations. This allowed managed care organizations to
                                           develop adequate services and programs. It also allowed
                                           States to test their newly set capitation rates for accuracy without
                                           risking the financial stability of the managed care organization.
                                           This sharing of risk was particularly helpful to newly created non-
                                           profit organizations which did not have financial reserves to
                                           sustain extended operational losses. States also felt that initially
                                           sharing financial risks would reduce the incentive for providers to
                                           restrict services.




Mandatory Managed Care - Lessons Learned               11                                     OEI-04-97-00343
                                     CONCLUSION


States have become more efficient in their managed care mental health programs. Each State learns
from the successes and mistakes of its predecessors. The continued sharing of lessons learned will
greatly benefit other States that are considering converting to mandatory managed care, and those
preparing for contract renewal.




Mandatory Managed Care - Lessons Learned       12                                   OEI-04-97-00343
                           AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA stated that the report provided good, first-hand information on changes to Medicaid mental
health services resulting from mandatory managed care enrollment during the first few years.

SAMHSA questioned whether the lessons learned should be referred to as “findings.” They said the
word “findings” may cause the reported experiences of the seven States to be construed as scientific
data. We certainly agree that our results are not “scientific” in the sense commonly used by SAMHSA in
its grant programs. On the other hand, we did gather the early experience of States in a systematic way
and presented a broad spectrum of assessments of the relevance and significance of these early efforts.
Keeping in mind the source and nature of the information, it seems prudent to try to learn as much as
possible from what these seven States have done so far. It was our hope, as SAMHSA has put it, that
“the lessons learned by the seven States are valuable for ongoing implementation by other States.”
Nevertheless, because of SAMHSA’s concerns, we have renamed this section “Early Lessons Learned”
in order to reduce any misunderstanding within the research community about the nature of our findings.
We also included in this report a section on advantages and limitations of our methodology in order to
emphasize that our results are based on a case study approach. We believe our discussion on our study
advantages and limitations will help readers understand what can and cannot be inferred from our field
work.

SAMHSA also expressed concern that none of our selected States had integrated programs and that we
therefore could not present a balanced comparison of integrated and carved out mental health systems of
care. However, our purpose was to describe the lessons learned by States that were the first to
implement mandatory managed care early. None of these States utilized an integrated system of care.
Therefore, we could not compare the different systems

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We also made several technical changes suggested by SAMHSA. For example, we clarified Appendix
A to show services that were excluded from risk by managed care organizations during their first year
contracts.

We present the full text of HCFA and SAMHSA comments in Appendix B.




Mandatory Managed Care - Lessons Learned        13                                     OEI-04-97-00343
                                                                                   APPENDIX A


  Summary: First Year Medicaid Managed Care Mental Health Contracts


        Start      Waiver                Type of                             Initial         Services
State   Date       Type          Managed Care Organization      Coverage      Area          Excluded
                                                                            Covered        from MCO
                                                                                              Risk
AZ      Jan       1115          Non-profit, public sector,      Adults     Statewide
        1992                    CMHCs*                          and
                                                                Children
CO      Aug       1915(b)       Most areas non-profit, public   Adults     6 test        State hospital
        1995                    sector CMHCs.                   and        areas.        & drugs
                                Two rural areas - partnership   Children   Excluded
                                between public sector                      largest
                                CMHCs and private, for-                    metro area
                                profit companies
IA      Mar       1915(b)       one private for-profit          Adults     Statewide     State hospital
        1995                    company for whole State         and                      & drugs
                                                                Children
MA      Jan       1915(b)       one private for-profit          Adults     Statewide     State hospital
        1992                    company for whole State         and                      & drugs
                                                                Children
NC      Jan       1915(b)       Non-profit, public sector       Children   11            Outpatient
        1994                    CMHCs                           Only       counties,     care
                                                                           approx
                                                                           25% of
                                                                           state
UT      Jul       1915(b)       non-profit, public sector       Adults     8 of 11       State
        1991                    CMHCs                           and        areas.        Hospitals
                                                                Children   80% of
                                                                           Medicaid
                                                                           population
WA      Jul       1915(b)       Non-profit public sector        Adults     6 of 14       In-patient
        1993                    system                          and        areas.        care
                                                                Children   66% of
                                                                           Medicaid
                                                                           population

* Community Mental Health Centers


 Mandatory Managed Care - Lessons Learned             14                                OEI-04-97-00343
                                                                      APPENDIX B



                                           Agency Comments

Health Care Financing Administration (HCFA)

Substance Abuse and Mental Health Services Administration (SAMHSA)





Mandatory Managed Care - Lessons Learned         15                      OEI-04-97-00343
Mandatory Managed Care - Lessons Learned   16   OEI-04-97-00343
Mandatory Managed Care - Lessons Learned   17   OEI-04-97-00343
Mandatory Managed Care - Lessons Learned   18   OEI-04-97-00343
Mandatory Managed Care - Lessons Learned   19   OEI-04-97-00343
Mandatory Managed Care - Lessons Learned   20   OEI-04-97-00343
                                                                                 ENDNOTES



 1. National Summary of Medicaid Managed Care Programs and Enrollment, Medicaid Managed care
 Enrollment Report, The Health Care Financing Administration, June 30, 1998

 2. State Profiles on Public Sector Managed Behavioral Health Care and Other Reforms. Managed
 Care Tracking System, Substance Abuse and Mental Health Services Administration, July 31, 1998

 3. Federal Register, Volume 58, Number 96, May 20, 1993 page 29425

 4. The 12-Month Prevalence and Correlates of Serious Mental Illness (SMI) Mental Health, United
 States, 1996. Center for Mental Health Services, Substance Abuse and Mental Health Services
 Administration, 1996

 5. Prevalence of Serious Emotional Disturbance in Children and Adolescents. Mental Health, United
 States, 1996. Center for Mental Health Services, Substance Abuse and Mental Health Services
 Administration, 1996

 6. ibid

 7. In February 1999, North Carolina requested to withdraw its 1915(b) waiver extension of the
 Carolina Alternatives Program. The State proposes to move all recipients back to a fee for service
 system on or before June 30, 1999.

 8. Oregon and Tennessee have been under managed care for a minimum of 3 years, but did not phase
 in their seriously mentally ill populations until January 1995 and July 1996 respectively. North
 Carolina’s waiver only applies to children.

 9. Iowa implemented March 1995. Colorado implemented July 1995.




Mandatory Managed Care - Lessons Learned        21                                   OEI-04-97-00343
